HHS/OIG-Audit--"Review of Pharmacy Acquistion Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Montana Department of Public Health and Human Services, (A-06-95-00068)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under
the Medicaid Prescription Drug Program for the Montana Department of Public Health
and Human Services," (A-06-95-00068)
July 11, 1996
Complete
Text of Report is available in PDF format (283 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review, part of a nationwide audit of pharmacy drug acquisition
costs requested by the Health Care Financing Administration, was to develop an
estimate of the difference between the actual acquisition costs of drugs of the
dispensing pharmacy and the average wholesale price (AWP) used by States in helping
establish drug reimbursement amounts. Most States reimburse pharmacies for Medicaid
prescriptions using a formula which generally discounts the AWP by 10.5 percent.
This review was made in 11 States. This final report discloses results in Montana.
In Montana the overall estimate of the extent that AWP exceeded pharmacy purchase
invoice prices was 16.2 percent for brand names drugs and 48.5 percent for generic
drugs. We believe that the differences between AWP and pharmacy acquisition costs
as determined by our review are significant enough to warrant consideration by
the State in any evaluation of the drug program. Therefore, we recommended that
the State agency consider the results of our review in determining any future changes
to pharmacy reimbursement for Medicaid drugs in Montana.